No. 20-1709
IN THE

Supreme Court of the United States
DAVID MING PON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by this Court’s Order of April 15,
2020), and 37.5 that I have, this 12th day of July, 2021, served the Brief of the Cato
Institute and Florida Association of Criminal Defense Lawyers as Amici Curiae
Supporting Petitioner upon each party separately represented in this proceeding by
causing an electronic copy of the same to be delivered to counsel of record at the
email addresses listed below:
Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
1700 K Street, NW, Fifth Floor
Washington, DC 20006
sjohnson@wsgr.com
Counsel of Record for Petitioner

1

Elizabeth B. Prelogar
Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondent
Pursuant to the Court’s April 15, 2020 Order, I certify that all parties have
agreed to accept such electronic service in lieu of service of paper copies. I further
certify that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
July 12, 2021

Counsel of Record for Amici Curiae

2

